      DEPARTMENT OF HEALTH & HUMAN SERVICES                            Office of Inspector General


                                                                     Washington, D.C. 20201




May 26, 2010

TO:            Marilyn Tavenner
               Acting Administrator and Chief Operating Officer
               Centers for Medicare & Medicaid Services


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of American Recovery and Reinvestment Act of 2009 Medicaid
               Eligibility Requirements in Minnesota (A-05-10-00014)


Attached, for your information, is an advance copy of our final report on the American Recovery
and Reinvestment Act of 2009 Medicaid eligibility requirements in Minnesota. We will issue
this report to the Minnesota Department of Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or James C. Cox at (312) 353-2621 or through email at James.Cox@oig.hhs.gov. Please refer to
report number A-05-10-00014.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                       Office of Audit Services, Region V
                                                                       233 North Michigan Avenue
                                                                       Suite 1360
                                                                       Chicago, IL 60601
May 28, 2010

Report Number: A-05-10-00014


Mr. Cal R. Ludeman
Commissioner
Minnesota Department of Human Services
P.O. Box 64998
St. Paul, MN 55164-0998

Dear Mr. Ludeman:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of American Recovery and Reinvestment Act of 2009
Medicaid Eligibility Requirements in Minnesota. We will forward a copy of this report to the
HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-05-10-00014 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services

Enclosure


HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




        REVIEW OF
  AMERICAN RECOVERY AND
 REINVESTMENT ACT OF 2009
   MEDICAID ELIGIBILITY
REQUIREMENTS IN MINNESOTA




                   Daniel R. Levinson
                    Inspector General

                       May 2010
                     A-05-10-00014
                         Office of Inspector General
                                          http://oig.hhs.gov


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase
FMAPs at any time.

Temporary Increase in Federal Medical Assistance Percentages

The American Recovery and Reinvestment Act of 2009 (the Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, provides fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the recession adjustment period (October 1,
2008, through December 31, 2010), the Recovery Act provides an estimated $87 billion in
additional Medicaid funding based on temporary increases in States’ FMAPs. Section 5000 of
the Recovery Act provides these increases to help avert cuts in health care provider payment
rates, benefits, or services and to prevent changes in income eligibility requirements that would
reduce the number of individuals eligible for Medicaid.

To qualify for the increased FMAP, States must meet various criteria. One of these addresses
eligibility. Pursuant to Section 5001(f)(1)(A) of the Recovery Act, a State is not eligible for an
increase in its FMAP for quarters during the recession adjustment period in which its Medicaid
eligibility standards, methodologies, or procedures are more restrictive than those in effect on
July 1, 2008.

Minnesota’s Temporary Increase in Federal Medical Assistance Percentage

In accordance with provisions in the Recovery Act, CMS made $489.2 million in additional
Medicaid funding available to the Minnesota Department of Human Services (the State agency)
for the first three quarters of Federal fiscal year 2009 (October 2008 through June 2009). For the
first two quarters, CMS increased the State’s FMAP 10.19 percentage points, from 50 percent to
60.19 percent and then up to 61.59 percent for the third quarter.




                                                 1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s Medicaid eligibility standards,
methodologies, and procedures during the first three quarters of Federal fiscal year 2009 were
more restrictive than those in effect on July 1, 2008.

Scope

We reviewed the State agency’s Medicaid eligibility standards, methodologies, and procedures
that were in effect during the period October 1, 2008, through June 30, 2009, to determine
whether they were more restrictive than those in effect on July 1, 2008. We did not review a
sample of eligibility case files to validate that standards, methodologies, or procedures were
consistently used in determining Medicaid eligibility. We did not determine if the State agency
increased its Medicaid eligibility income standards (expressed as a percentage of the poverty
line) or if it applied the increased FMAP to expenditures for individuals made eligible for
Medicaid as a result of increased income standards. We did not review the State agency’s
overall internal control structure. We limited our review to obtaining an understanding of the
procedures the State agency used for changing eligibility standards, methodologies, and
procedures and for communicating procedures to the staff members who made eligibility
determinations.

We performed our fieldwork at the State agency’s office in St. Paul, Minnesota and at two
county offices in St. Paul and West St. Paul, Minnesota, in November 2009.

Methodology

To accomplish our objective, we:

   •    reviewed the Recovery Act and applicable CMS guidance;

   •    reviewed all Medicaid eligibility-related changes made to Minnesota’s State plan after
        July 1, 2008;

   •    reviewed all changes made to Minnesota’s Medicaid Eligibility Manual after July 1,
        2008;

   •    interviewed CMS regional office officials;

   •    interviewed State agency management and Medicaid eligibility policy officials;

   •    interviewed county office staff members who made eligibility determinations to
        determine how changes in eligibility standards, methodologies, and procedures are
        communicated to them and what changes they implemented after July 1, 2008; and


                                                2
   •   compared all revised eligibility standards, methodologies, and procedures implemented
       after July 1, 2008 to those in effect on July 1, 2008.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.


                                    RESULTS OF REVIEW

Although the State agency made changes to its Medicaid eligibility standards, methodologies,
and procedures after July 1, 2008, the standards, methodologies, and procedures in effect during
the first three quarters of Federal fiscal year 2009 were not more restrictive than those in effect
on July 1, 2008.

The eligibility changes included:

   •   updates to Federal guidelines, such as poverty level charts, life expectancy tables, and
       standards used to determine applicants’ needs in relation to their resources;

   •   editorial changes that did not affect the eligibility process; and

   •   changes that made the eligibility process less restrictive.

This report contains no recommendations.




                                                 3
